Case: 19-10450

Document: 00515623860

Page: 1

Date Filed: 11/03/2020

®nttei> States Court of Appeals
for tfje Jftftf) Circuit
No. 19-10450

William Douglas Hampton,
Petitioner—Appellant,
versus
Warden FCI Elkton,
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-1499

ON PETITION FOR REHEARING
AND REHEARING EN BANC
(Opinion 7/10/2020,5 CiR.,

F.3d

Before Owen, ChiefJudge, and Haynes, and Costa, Circuit Judges.
Per Curiam:

(V)

The Petition for Rehearing is DENIED and no member of this panel
nor judge in regular active service on the court having requested that
the court be polled on Rehearing En Banc, (Fed. R. App. P. and 5th
Cir. R. 35) the Petition for Rehearing En Banc is also DENIED.

Case: 19-10450

Document: 00515623860

Page: 2

Date Filed: 11/03/2020

19-10450

( )

The Petition for Rehearing is DENIED and the court having been
polled at the request of one of the members of the court and a majority
of the judges who are in regular active service and not drsqualified not
having voted in favor, (Fed . R. App. P. and 5th Cir. R. 35) the
Petition for Rehearing En Banc is also DENIED.

( )

A member of the court in active service having requested a poll on the
reconsideration of this cause En banc, and a majority of the judges in
active service and not disqualified not having voted m favor,
Rehearing En Banc is DENIED.

2

IN THE UNITED STATES COUKT OF APPEALS
United States Court of Appeals
FOR THE FIFTH CIRCUIT
Fifth Circuit
FILED
No. 19-10450
Summary Calendar

July 10, 2020
Lyle W. Cayce
Clerk

WILLIAM DOUGLAS HAMPTON,
Petitioner-App ellant
v.

WARDEN FCI ELKTON,
Respondent-Appellee

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3-.18-CV-1499

Before OWEN, Chief Judge, and HAYNES and COSTA, Circuit Judges.
PER CURIAM:*
William Douglas Hampton, federal prisoner # 26034-044, appeals the
district court’s dismissal of his 28 U.S.C. § 2241 petition and denial of his
motion for injunctive relief.
However, he does not brief any argument contesting the district court s
determination that it lacked jurisdiction to consider the § 2241 petition
because the claims he presented could only be brought m
i a 28 U.S.C. § 2255

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

No. 19-10450
in the Eastern District of
motion filed in the sentencing court, which was m
Hampton also does not brief any argument challenging the district
Missouri.
not entitled to injunctive relief because he
court’s determination that he was
failed to meet the procedural and substantive requirements for such relief.
Instead, his arguments concern

only the propriety of his convictions and

sentences.
reasons for
By failing to brief arguments disputing the district court s
petition and denying injunctive relief, Hampton has
dismissing his § 2241
and has failed to show that the district court erred.
waived any such arguments
Collins, 985 F.2d 222, 224-25 (5th Cir. 1993).
See Yohey v.
AFFIRMED.

I

2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
WILLIAM DOUGLAS HAMPTON,
#26034-44,
Petitioner,
vs.

)
)

)

No. 3:18-CV-1499-S

)
)

WARDEN UNDERWOOD,
Respondent.

)

ORDER ACCEPTING FINDINGS AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
After reviewing all relevant matters of record in this case, including the Findings, Conclu­
sions, and Recommendation of the United States Magistrate Judge and any objections thereto, in
accordance with 28 U.S.C. § 636(b)(1), the Court is of the opinion that the Findings and Conclusions
of the Magistrate Judge are correct and they are accepted as the Findings and Conclusions of the
Court. For the reasons stated in the Findings, Conclusions, and Recommendation of the United
States Magistrate Judge, the petitioner’s Petition to Set Aside District Court Judgment Pursuant to
Rule 59(a)(2), received on October 31, 2018 (doc. 17), is liberally construed as motion to alter or
amend the judgment under Fed. R. Civ. P. 59(e) and GRANTED, and the judgment dismissing the
opportunity to file objections to the
case is VACATED, and the petitioner will be given an
recommendation of dismissal.
r

SIGNED this

d

day of

,2019.

UNITPED STATES DISTRICT JUDGE

.

Case 3:l8-cv-0l499-S-BH Document 36 Filed 04/04/19

Page 1 of 5 PagelD 117

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
WILLIAM DOUGLAS HAMPTON,
#26034-44,
Petitioner,
vs.

)
)
)

)

No. 3:18-CV-1499-S (BH)

)

WARDEN UNDERWOOD,
Respondent.

)

Referred to U.S. Magistrate Judge

)

FINDINGS. CONCLUSIONS. AND RECOMMENDATION
By Special Order 3-251, this habeas case has been referred for findings, conclusions, and
recommendation. Before the Court is the petitioner’s Petition to Set Aside District Court Decision
Pursuant to F.R Ci. P. Rule 59e, received on March 8,2019 (doc. 3 2). Based on the relevant filings
and applicable law, the motion should be construed as a motion under Fed. R. Civ. P. 60(b) and
DENIED.
L BACKGROUND
On September 21,2018, it was recommended that the petitioner’s habeas petition under 28
U.S.C. § 2241 be dismissed for lack of jurisdiction, the recommendation was accepted, and the
petition was dismissed on October 15,2018. (See docs. 11-13.) On October 25,2018, the petitioner
moved to set aside the judgment on grounds that he did not receive a copy of the recommendation.
(See doc. 14.) On November 5,2018, it was recommended that the judgment be vacated, and that
he be given an opportunity to file objections to the recommendation. (See doc. 15.) A copy of the
recommendation for dismissal was sent to him, and he was directed to file his objections within 14
days of being served with the recommendation. (See id.) Petitioner received a copy of the
recommendation for dismissal on November 14,2008, and he was granted an extension of time until
December 14, 2018, to file his objections. (See docs. 16, 17.)

Case 3:18-cv-0l499-S-BH Document 36 Filed 04/04/19

Page 2 of 5 PagelD 118

The petitioner submitted an “abbreviated response” that was received on December 14,
2018, and he sought an extension of time to supplement his objections with additional facts. (See
docs. 18, 19.) By order dated December 21, 2018, he was granted an extension until January 14,
2019, to file supplemental objections. (See doc. 20.) The order specifically provided that no further
extensions would be granted, and that if his supplemental obj ections were not received by that date,
only the objections on file would be considered. (See id.)
The petitioner then filed a Petitionfor Temporary Injunction Grant, received on December
31,2018. (See doc. 21.) He sought injunctive relief in the form of access to law library reference
materials, a law library computer, a typewriter, printer, photocopier, and stored legal documents.
On January 8, 2019, it was recommended that the motion for injunctive relief be denied. (See doc.
22.) Petitioner filed objections to that recommendation to deny injunctive relief, which were
received on January 22, 2019. (See doc. 24.) His objections did not include any additional
objections to the original recommendation to dismiss the habeas petition.
On January 23, 2019, the motion to set aside the judgment was granted, and the judgment
was vacated to allow for consideration of the petitioner’s objections to the recommended dismissal
of his petition. (See doc. 25.) On February 6, 2019, the recommendation to deny injunctive relief
and the original recommendation to dismiss the petition for lack ofjurisdiction were accepted, the
petition was dismissed for lack of jurisdiction, and judgment was entered. (See docs. 26-28.) On
March 5, 2019, Petitioner’s request for an extension of time to file objections to the original
recommendation to dismiss the petition was received, and it was recommended that the motion be
construed as a arising under Fed. R. Civ. P. 59(e) and denied. (See doc. 33.) The recommendation
was accepted by order dated April 3, 2019. (See doc. 35.)

2

Case 3:l8-cv-01499-S-BH Document 36 Filed 04/04/19

Page 3 of 5 PagelD 119

Petitioner now expressly seeks relief under Rule 59(e). He contends that he did not receive
the January 23,2019 order (doc. 25), until February 25,2019. He also contends that he received the
February 6,2019 orders (docs. 26,27) on February 28,2019. According to the docket, the January
23, 2019 order (doc. 25) was returned as undeliverable on February 21, 2019. (See doc. 30.) On
February 21,2019, that order and the February 6, 2019 orders were all re-mailed to him at the new
address he included in his notice of appeal, which was filed on February 12, 2019.
H. FED. R. CIV. P. 60(b)
“When a litigant files a motion seeking a change in judgment, courts typically determine the
appropriate motion based on whether the litigant filed the motion within Rule 59(e)’s time limit.”
Williams v. Thaler, 602 F .3 d 291,303 & n. 10 (5th Cir. 2010). Because the petitioner’s motion was
mailed outside of Rule 59(e)’s limit, it is properly construed as a motion under Fed. R. Civ. P. 60(b).
Rule 60(b) provides that a court may relieve a party from a final judgment or order for the
following reasons: (1) mistake, inadvertence, surprise, or excusable neglect; (2) newly discovered
evidence that, with reasonable diligence, could not have been discovered earlier; (3) fraud,
misrepresentation, or misconduct by an opposing party; (4) the judgment is void; (5) the judgment
has been satisfied, released, or discharged, or it is based on an earlier judgment that has been
reversed or vacated, or that applying the judgment prospectively is no longer equitable; or (6) any
other reason that justifies relief. See Rule 60(b)(l)-(6). A Rule 60(b) motion must be made within
a reasonable time, and no longer than one year after judgment was entered of relief is sought under
subsections (1), (2), and (3). See Rule 60(c)(1).
Here, the petitioner has not alleged or shown mistake, newly discovered evidence, fraud, or
a void or satisfied judgment that would entitle him to relief under Rule 60(b)(l)-(5). His motion

3

Case 3:18-cv-01499-S-BH Document 36 Filed 04/04/19

Page 4 of 5 PagelD 120

may therefore be construed as arising under the “catch-all” clause of Rule 60(b)(6). See Hess v.
Cockrell, 281 F.3d 212, 215-16 (5th Cir. 2002). This clause is “‘a residual clause used to cover
unforeseen contingencies; that is, it is a means for accomplishing justice in exceptional
circumstances.’” Steverson v. GlobalSantaFe Corp., 508 F.3d 300, 303 (5th Cir. 2007) (quoting
Stipelcovich v. Sand Dollar Marine, Inc., 805 F. 2d 599, 604-05 (5th Cir. 1986)). Motions under
this clause “will be granted only if extraordinary circumstances are present.” Hess, 281F. 3d at 216.
In Seven Elves, Inc. v. Eskenazi, 635 F.2d 396 (5th Cir. 1981), the Fifth Circuit set forth
factors to consider when evaluating a motion under this clause: (1) that final judgments should not
lightly be disturbed; (2) that a Rule 60(b) motion should not be used as a substitute for appeal; (3)
that the rule should be liberally construed in order to achieve substantial justice; (4) whether, if the
case was not decided on its merits due to a default or dismissal, the interest in deciding the case on
its merits outweighs the interest in the finality of the judgment and there is merit in the claim or
defense; (5) whether, if the judgment was rendered on the merits, the movant had a fair opportunity
to present his claims; (6) whether there are intervening equities that would make it inequitable to
grant relief; and (7) any other factors relevant to the justice of the judgment under attack. Id. at 402.
The petitioner’s “abbreviated response,” which he filed after receiving two extensions of
time, was considered, and he did not file any supplemental objections to the original
recommendation even though he was granted an extension of time to do so. He was afforded a fair
opportunity to present his claims, and they were dismissed for lack of jurisdiction. He has not
shown a basis for relief under Rule 60(b).
III. RECOMMENDATION
The petitioner’s motion to alter or amend the judgment under Fed. R. Civ. P. 59(e) should

4

Case 3:l8-cv-0l499-S-BH Document 36 Filed 04/04/19

Page 5 of 5 PagelD 121

be construed as arising under Fed. R. Civ. P. 60(b) and DENIED.
SIGNED this 4th day of April, 2019.

)') ,

m?

:z
TRMA CARRILLO
UNITED STATES MAGISTRATE MDGE

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
A copy of these findings, conclusions and recommendation shall be served on all parties in
the manner provided by law. Any party who objects to any part of these findings, conclusions and
recommendation must file specific written obj ections within 14 days after being served with a copy.
See 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b). In order to be specific, an objection must identify
the specific finding or recommendation to which obj ection is made, state the basis for the obj ection,
and specify the place in the magistratejudge’s findings, conclusions and recommendation where the
disputed determination is found. An obj ection that merely incorporates by reference or refers to the
briefing before the magistrate judge is not specific. Failure to file specific written objections will
bar the aggrieved party from appealing the factual findings and legal conclusions of the magistrate
judge that are accepted or adopted by the district court, except upon grounds of plain error. See
Douglass v. United Servs. Automobile Ass’n, 79F.3d 1415, 1417 (5th Cir. 1996).

f,

'S^ZaTcab^

■*?

/J

UNITED STATES MAGISTRATE JUDGE

5

